BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
JUSTIN MARQUES HENNING ,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Petition for Writ of Certiorari contains
6,661 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 2, 2020.

Do~aJ. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001
www.beckergallagher.com

Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

\J

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

